           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       INDIVIDUALS RECEIVING
       MULTIPLE AUXILIARY OR
         SURVIVOR BENEFITS


     March 2005   A-01-05-25015




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                           SOCIAL SECURITY
MEMORANDUM


Date:   March 28, 2005                                                                     Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Individuals Receiving Multiple Auxiliary or Survivor Benefits (A-01-05-25015)



        OBJECTIVE
        Our objective was to determine whether individuals who received multiple auxiliary or
        survivor benefits were entitled to the benefits paid to them.

        BACKGROUND
        Eligible spouses and children of retired or disabled workers may be paid auxiliary
        benefits under Title II of the Social Security Act. In addition, benefits may also be
        payable to certain survivors of deceased workers.1 The number of beneficiaries and
        total monthly benefits paid in December 2003 are shown in the table below.2

                                              BENEFICIARIES                       BENEFITS PAID
               December 2003             Number                               Dollars
                                                              Percent                             Percent
                                       (thousands)                           (millions)
            Spouses                           2,773                24%            $1,247               17%
            Widow(er)s and Parents            4,899                42%            $4,239               59%
            Children                          3,961                34%            $1,764               24%
               Total                         11,633               100%            $7,250               100%


        Individuals may be entitled to auxiliary/survivor benefits based on several workers’
        earnings simultaneously (for example, based on the earnings of both parents), but may
        generally only be paid on the higher of the two. When an auxiliary/survivor beneficiary

        1
            The Social Security Act § 202, 42 U.S.C. § 402.
        2
            SSA, Fact Sheet on the Old-Age, Survivors, and Disability Insurance Program, January 2, 2004.
Page 2 – The Commissioner


becomes entitled to another, higher benefit, the Social Security Administration’s (SSA)
policy is to stop issuing the lower benefit payments, thus preventing an overpayment
from occurring.3

SSA uses its Master File Duplicate Detection Operation (MAFDUP) software to identify
beneficiaries who may be incorrectly receiving benefits on multiple records. The
Agency runs MAFDUP twice annually (March and September) and alerts are generated
to SSA’s Program Service Centers for review and action. To assist the Agency with
tracking overpayments established as a result of MAFDUP, all overpayments posted to
benefit records must be coded as “multiple entitlement.”4

In February 2004—while conducting an audit on childhood disability benefits5—we
identified a population of 1,514 beneficiaries whose Social Security numbers (SSN)
were recorded on multiple records and, therefore, appeared to be incorrectly receiving
multiple auxiliary/survivor benefits.6 We randomly selected 200 of the
1,514 beneficiaries for review to determine whether payments to these beneficiaries
were appropriate.7 (For additional information about our scope, methodology and
sampling results, see Appendix B.)

RESULTS OF REVIEW
Generally, individuals who received multiple auxiliary/survivor benefits were not entitled
to the benefits paid to them. Based on the results of our sample, we estimate that about
863 beneficiaries were incorrectly paid approximately $3.5 million in benefits under
multiple records. Although we estimate the Agency identified about $1.5 million of these
overpayments, we estimate about $2.0 million went undetected by the Agency. Further,
because of our audit, we estimate SSA avoided paying about $614,336 by stopping
some of the incorrect payments sooner than it would have through its existing
procedures.




3
    SSA, Program Operations Manual System, SM 00823.010.
4
    SSA, Operations Bulletin, OB 04-0197, April 1, 2004.
5
 SSA OIG, Individuals Receiving Multiple Childhood Disability Benefits (A-01-04-24078),
September 2004.
6
  Of these 1,514 beneficiaries, 1,368 were receiving child’s or student’s benefits, 120 were receiving
widow(er)’s benefits, and 15 were receiving spouse’s benefits. The remaining 11 beneficiaries appeared
to have received various benefits (for example, one child’s benefit and one spouse’s benefit).
7
 The OIG also expects to issue a report in Fiscal Year 2005 on Individuals Receiving Benefits Under
Multiple Social Security Numbers at the Same Address (A-01-05-25002).
Page 3 – The Commissioner


Of the 200 cases we sampled:                     22%
                                                                      Sample Results

     114 beneficiaries were overpaid                                  11 Cases
      $462,713 because they                                           Wrong SSNs
      incorrectly received benefits                    33 Cases
      under multiple records                           No Over-               5%            114 Cases
                                                                                             Overpaid
      simultaneously;                                  payments        17 %
                                                       Recorded                              $462,713

     42 beneficiaries were still being                                            57%

      reviewed by the Agency;8                                        2 1%

                                                          42 Cases
     33 beneficiaries stopped                             Pending
      receiving incorrect payments,                       Review by
                                                            SSA
      but SSA did not record any
      overpayments;9 and

     11 beneficiaries did not receive multiple benefits simultaneously, but their SSNs
      were incorrectly recorded on SSA’s systems.10 Although these individuals did not
      receive multiple benefits, SSA’s ability to ensure payment accuracy is impacted
      when auxiliary/survivor beneficiaries’ SSNs are not recorded correctly on their
      benefit records.11

BENEFICIARIES OVERPAID MULTIPLE AUXILIARY/SURVIVOR BENEFITS

Of the 200 beneficiaries in our sample, 114 were incorrectly paid benefits under multiple
records. The Agency detected $198,074 in overpayments to 39 of these beneficiaries
(34 percent).12 However, $264,639 in overpayments to the remaining 75 beneficiaries
(66 percent) went undetected by the Agency.13 Below are two examples.




8
  These 42 beneficiaries appeared to be receiving auxiliary/survivor benefits on multiple records as of
December 2004. We expect that additional improper payments—similar to those described above—
occurred in this group. (For a summary of all beneficiaries in our population who appeared to continue to
receive multiple benefits as of December 2004, see Table 2 in Appendix B.)
9
 For 29 of these beneficiaries, our review of the benefit records indicated that overpayments may have
occurred.
10
  Based on the 11 beneficiaries in our sample, we estimate that about 83 beneficiaries in our population
had their SSNs incorrectly recorded in SSA’s systems.
11
  For more information, see our related audit report, Impact on SSA’s Programs When Auxiliary
Beneficiaries Have Incorrect Social Security Numbers (A-01-03-33020), issued November 2003.
12
     For a summary of the overpayment periods for these 39 beneficiaries, see Table 6 in Appendix B.
13
  For the 75 beneficiaries whose overpayments were identified based on our audit, the average
overpayment was $3,529 over a period of 17 months.
Page 4 – The Commissioner


        One beneficiary began receiving multiple benefits in September 2002. SSA
         detected the error and took corrective action in April 2004. As a result, ongoing
         incorrect payments were stopped and the Agency began efforts to recover the
         $5,938 that was incorrectly paid to the beneficiary.

        In November 2002, the Agency began issuing new benefits to a beneficiary
         without stopping the other, smaller benefit payment. In December 2004, the
         Agency took corrective action based on our audit and began efforts to recover
         the $4,718 incorrectly paid to this beneficiary.

MAFDUP RESULTS

Cases Not Identified
                      Although SSA uses MAFDUP to detect situations involving
By MAFDUP             multiple benefits, we found that not all beneficiaries who were
                      incorrectly paid multiple benefits were identified by the software.
Of the 114 overpaid beneficiaries in our sample, 90 (79 percent) were identified by
MAFDUP, but 24 were not (21 percent). These 24 beneficiaries were not identified by
MAFDUP even though their SSNs appeared on multiple records.14

For example, SSA began issuing new benefit payments to one beneficiary in
June 2002 without also stopping the other benefits that were already being paid.
Although the beneficiary’s SSN appeared on both benefit records, the software did not
identify the multiple payments that were issued. Consequently, SSA personnel were
unaware that payments totaling $10,336 were incorrectly issued until our audit. Based
on our review, the Agency took corrective action in July 2004 and began efforts to
recover the overpayment.

Alerts Not Worked      Overpayments can accumulate when alerts are not worked
Timely                 timely. Although 90 of the overpayment cases were identified by
                       MAFDUP, 53 of them were not corrected until our audit. For
example, one beneficiary—whose multiple benefits were identified by MAFDUP—was
overpaid $6,813 from November 2002 through May 2004. In May 2004, SSA stopped
the ongoing incorrect payments based on our audit. If the earlier alerts produced by
MAFDUP had been investigated timely, a significant portion of the overpayment could
have been prevented.15

Frequency of
                     SSA runs MAFDUP twice annually (March and September).
MAFDUP               Therefore, the opportunity exists for overpayments to be larger
                     and span longer periods of time than they otherwise would be if
they were detected and resolved sooner. For example, one beneficiary began receiving

14
  Although MAFDUP software did not identify 24 of the 114 cases overpaid, SSA did identify 2 of the
24 cases by other means (e.g., contact with beneficiaries).
15
   We assumed that this beneficiary—who met MAFDUP criteria in 2004—also met MAFDUP criteria
in 2002 and 2003 when the multiple payments were issued.
Page 5 – The Commissioner


multiple benefits in October 2003 (one month after MAFDUP was last run). The
incorrect payments went undetected for several months (and overpayments continued
to accumulate) until MAFDUP was run again in March 2004. The Agency took
corrective action in April 2004 to stop the payments and recover the $2,054 that was
incorrectly paid to the beneficiary. If SSA were to run MAFDUP more frequently
(e.g., monthly), individuals receiving multiple benefits could be identified sooner and
overpayments could be avoided.

Overpayments           To assist the Agency with tracking the results of MAFDUP, SSA
Resulting from         captures the overpayments recorded on the beneficiaries’
MAFDUP                 records subsequent to the alerts, provided the overpayment
                       reasons are shown as resulting from “multiple entitlement.”
Agency personnel correctly recorded the overpayment reasons for 77 of the
114 overpaid beneficiaries (68 percent). However, for the remaining 37 beneficiaries
(32 percent), the overpayments were not recorded as resulting from “multiple
entitlement.”16 As a result, the value of the Agency’s MAFDUP software—as expressed
in terms of overpayments identified—may have been understated.

ACCURACY OF OVERPAYMENTS RECORDED

In addition to analyzing the 200 cases in our sample, we confirmed the accuracy of
overpayments recorded for 68 of the 1,514 beneficiaries in our audit population. We
found that Agency personnel did not accurately calculate and record overpayments for
all beneficiaries who were incorrectly paid multiple auxiliary/survivor benefits.
Overpayments resulting from multiple benefits must be manually computed and
recorded and, therefore, are error prone. We requested that SSA review the 68 records
to determine whether the individuals were overpaid and, if so, whether the
overpayments were calculated and recorded accurately.

The Agency confirmed that the overpayments recorded for 32 of these 68 beneficiaries
were not correct (47 percent).17 SSA originally calculated and recorded overpayments
totaling $17,789. However, after reviewing these records based on our audit, the
Agency determined that an additional $65,528 was overpaid, but was not previously
recorded. Of these 32 beneficiaries:
         24 did not have any overpayments recorded prior to our audit, even though they
          were overpaid a total of $56,704.
         8 were not assessed the correct overpayment amounts prior to our audit.
          Specifically, SSA only recorded $17,789 of the $26,613 in overpayments
          (67 percent) they actually received. Based on our audit, the Agency assessed an
          additional $8,824 in overpayments.


16
 The records for these beneficiaries reflected various other overpayment reasons, including “Incorrect
Month of Entitlement,” “Duplicate Retirement or Disability Payment,” and “Other Invalid Entitlement.”
17
     For a summary of these 68 beneficiaries by responsible SSA office, see Table 9 in Appendix B.
Page 6 – The Commissioner


CONCLUSIONS AND RECOMMENDATIONS
Generally, individuals who received multiple auxiliary/survivor benefits were not entitled
to the benefits paid to them. Although the 1,514 beneficiaries in our audit population
represent less than 1 percent of all auxiliary/survivor beneficiaries, we estimate that
about $3.5 million was improperly paid to these individuals and could have been
avoided. To assist the Agency in achieving its strategic objective of preventing
improper payments and improving debt management, we recommend that SSA:

     1. Remind employees to take the necessary action to stop any benefits being paid
        when beneficiaries become entitled to other, higher benefits.

     2. Review MAFDUP procedures (and modify if necessary) to ensure all
        beneficiaries who appear to have incorrectly received multiple benefits are
        identified and alerted.

     3. Run MAFDUP more frequently to minimize the amount of overpayments that
        accumulate.

     4. Review the records in which the auxiliary/survivor beneficiaries continued to
        receive benefits as of December 2004 and take action to: (a) stop any recurring
        incorrect payments and recover any overpayments, or (b) correct the SSNs for
        those beneficiaries whose SSNs were incorrectly recorded.

     5. Remind employees of the proper procedures for manually calculating and
        recording overpayments resulting from multiple benefits.

     6. Review the overpayments to those beneficiaries who incorrectly received multiple
        benefits to ensure they were calculated and recorded correctly.

AGENCY COMMENTS
The Agency agreed with five of our six recommendations. Specifically, the Agency
plans to (a) issue reminder instructions to employees in March 2005, and (b) review the
records and overpayments for the cases specified in our audit to ensure they were
processed correctly.18 SSA also indicated that several improvements were recently
made to MAFDUP that should help the Agency better identify multiple payment
situations; and the Agency is considering additional systems enhancements. However,
SSA acknowledged that such enhancements must first be reviewed and prioritized
against other systems improvements before they can be developed and implemented.




18
  On February 23, 2005, we provided SSA with a list of the cases we identified related to
recommendations 4 and 6.
Page 7 – The Commissioner


In response to recommendation 3, SSA did not agree to run MAFDUP more frequently
because the Agency believes that, if further systems modifications are approved and
funded, there would be no need for additional MAFDUP runs.

OIG RESPONSE
We are encouraged by the Agency’s plans to enhance its computer systems to better
identify and prevent multiple benefits to auxiliary/survivor beneficiaries. We agree that
SSA’s planned improvements to MAFDUP should decrease the improper payments
described in our report. However, the additional systems enhancements the Agency
has planned will take time to implement. Until these systems enhancements are in
place, we encourage SSA to run MAFDUP more frequently so that multiple benefit
cases may be identified sooner and overpayments may be avoided.




                                                 S
                                                 Patrick P. O'Carroll, Jr.
                                   Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope, Methodology and Sample Results

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
MAFDUP     Master File Duplicate Detection Operation

OIG        Office of the Inspector General

SSA        Social Security Administration

SSN        Social Security Number

U.S.C.     United States Code
                                                                                 Appendix B

Scope, Methodology and Sample Results
In October 2003, we identified a population of 160 individuals who appeared to have
incorrectly received multiple childhood disability benefits (i.e., the same Social Security
numbers appeared on multiple benefit records).1 During the course of this audit, we
obtained a file from the Social Security Administration (SSA) of all Title II beneficiaries
who were receiving benefits as of February 2004. From this file, we identified a
separate population of 1,514 individuals who appeared to be receiving multiple
auxiliary/survivor benefits inappropriately.2 Therefore, we initiated this review to
determine whether payments to these 1,514 beneficiaries were appropriate.

To accomplish our objective, we researched the Social Security Act and SSA’s
regulations, policies and procedures related to multiple auxiliary/survivor benefits. We
referred the 1,514 cases to SSA’s Office of Operations for review and corrective action.
We randomly selected 200 of the 1,514 cases and analyzed beneficiary information
available on SSA’s electronic systems—including the Master Beneficiary Record and
the Payment History Update System—and projected our results to the population. In
addition, we selected 68 of the 1,514 cases and confirmed with SSA whether the
overpayments resulting from multiple benefits were calculated and recorded correctly.

For records that were corrected by SSA as a result of our audit, we estimated the
benefits the Agency avoided paying by stopping the incorrect payments. Specifically,
we found that the median overpayment period—resulting from incorrect payments that
SSA detected through its existing procedures—was 15 months.3 Therefore, for cases in
which the Agency stopped the incorrect payments sooner than 15 months based on our
audit, we assumed that SSA avoided paying some monthly benefits.4




1
 SSA OIG, Individuals Receiving Multiple Childhood Disability Benefits (A-01-04-24078),
September 2004.
2
 We excluded from our review individuals who were simultaneously receiving both remarried widow(er)’s
and spouse’s benefits because these benefits may be permissible under the Social Security Act.
3
    The average overpayment period for these cases was 21 months.
4
 For example, SSA stopped benefit payments based on our audit to one beneficiary in June 2004 and
assessed an overpayment of $2,145 for the 4-month period ending June 2004. Since SSA stopped
payments within a 4-month period—instead of the median of 15 months—we estimate the Agency
avoided paying benefits for an additional 11 months and saved approximately $7,865.


                                                  B-1
We conducted our review between May and December 2004 in Boston, Massachusetts.
We determined that the data used for this audit was sufficiently reliable to meet our
audit objective. The principal entities audited were SSA’s Field Offices and Program
Service Centers under the Deputy Commissioner for Operations. We conducted our
audit in accordance with generally accepted government auditing standards.

POPULATION AND SAMPLE INFORMATION

                                    Table 1: Population and Sample Size
       Population Size                                                                          1,514
       Sample Size                                                                               200


                             Table 2: Audit Population By Responsible SSA Office
                                                                                  Cases Unresolved as
    Responsible Office5               Total Cases         Cases Resolved6
                                                                                   of December 20047
     Northeastern
                                          45                     34                        11
Program Service Center
    Mid-Atlantic Program
                                         108                     96                        12
       Service Center
    Southeastern Program
                                         166                    142                        24
       Service Center
    Great Lakes Program
                                         110                     92                        18
       Service Center
      Western Program
                                         122                     94                        28
       Service Center
    Mid-America Program
                                         122                     99                        23
       Service Center
      Office of Disability
                                         821                    639                      182
          Operations
    Office of International
                                          20                      8                        12
         Operations
             Total                     1,514                  1,204                      310


5
  SSA’s program service centers are assigned workloads based on a range of Social Security numbers.
For some individuals who received benefits under multiple records, the two records may not be the
responsibility of the same office. To be consistent with SSA’s Master File Duplicate Detection Operation
software procedures, we included cases in a responsible office’s total based on the benefit record which
had the highest chronological Social Security number.
6
 For purposes of this table, we included in the “Cases Resolved” category beneficiaries, whose Social
Security numbers were not recorded correctly and, therefore, did not appear to be receiving multiple
benefits.
7
  We obtained payment status information for the 1,514 beneficiaries in our population as of
December 2004. These 310 beneficiaries appeared to continue to receive multiple benefits incorrectly
through December 2004.


                                                    B-2
Table 3: Auxiliary/Survivor Beneficiaries Incorrectly               Number of
                                                                                     Dollars
Paid Multiple Benefits                                             Beneficiaries
Identified in Sample                                                       114        $462,713
Point Estimate                                                             863      $3,502,741
Projection Lower Limit                                                     778      $2,595,342
Projection Upper Limit                                                     946      $4,410,140
Note: All projections are at the 90-percent confidence level.


Table 4: Of the Auxiliary/Survivor Beneficiaries in                 Number of
Table 3, Those Whose Overpayments Were Not                         Beneficiaries     Dollars
Identified Until Our Audit
Identified in Sample                                                          75      $264,639
Point Estimate                                                             568      $2,003,320
Projection Lower Limit                                                     487      $1,541,053
Projection Upper Limit                                                     652      $2,465,587
Note: All projections are at the 90-percent confidence level.


Table 5: Of the Auxiliary/Survivor Beneficiaries in                 Number of
Table 3, Those Whose Overpayments Were Identified by               Beneficiaries     Dollars
SSA Prior to Our Audit
Identified in Sample                                                          39      $198,074
Point Estimate                                                             295      $1,499,421
Projection Lower Limit                                                     232        $674,051
Projection Upper Limit                                                     368      $2,324,791
Note: All projections are at the 90-percent confidence level.


                        Table 6: Overpayment Periods for Sample Cases
         Overpayment Period Range                               Number of Beneficiaries
                1 to 3 Months                                              5
                4 to 6 Months                                              5
               7 to 12 Months                                              6
              13 to 18 Months                                              9
              19 to 24 Months                                              6
              25 to 36 Months                                              5
            More than 36 Months                                            3
                     Total                                                39
                 Average Period                                   21 Months
                 Median Period                                    15 Months



                                                  B-3
Table 7: Auxiliary/Survivor Beneficiaries With Incorrect Social Security               Number of
Numbers Recorded in SSA’s Systems                                                     Beneficiaries
Identified in Sample                                                                              11
Point Estimate                                                                                    83
Projection Lower Limit                                                                            50
Projection Upper Limit                                                                           131
Note: All projections are at the 90-percent confidence level.


Table 8: Benefits SSA Avoided Paying By Stopping Payments Sooner
                                                                                          Dollars
Than Expected Due to Audit
Identified in Sample                                                                          $81,154
Point Estimate                                                                            $614,336
Projection Lower Limit                                                                    $373,376
Projection Upper Limit                                                                    $855,295
Note: All projections are at the 90-percent confidence level.


             Table 9: Overpayment Confirmation Results By Responsible Office
                                                         Overpayment was        Overpayment was Not
  Responsible Office        Total Cases Reviewed        Accurately Calculated   Accurately Calculated
                                                           and Recorded            and Recorded
Northeastern Program
                                       5                         5                       0
    Service Center
 Mid-Atlantic Program
                                       2                         2                       0
    Service Center
Southeastern Program
                                       6                         6                       0
    Service Center
Great Lakes Program
                                       6                         1                       5
    Service Center
  Western Program
                                       0                         0                       0
    Service Center
Mid-America Program
                                       4                         2                       2
    Service Center
  Office of Disability
                                       45                        20                      25
      Operations
Office of International
                                       0                         0                       0
      Operations
         Total                         68                        36                      32




                                                  B-4
                  Appendix C

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM                                                                      34131-24-1256


Date:      March 14, 2005                                                       Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Review of Individuals Receiving Multiple
           Auxiliary or Survivors Benefits" (A-01-05-25015)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                      C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “REVIEW OF INDIVIDUALS RECEIVING MULTIPLE AUXILIARY OR
SURVIVORS BENEFITS” (A-01-05-25015)


Thank you for the opportunity to review and comment on the draft report. Our responses to the
specific recommendations are provided below.

Recommendation 1

The Social Security Administration (SSA) should remind employees to take the necessary action
to stop any benefits being paid when beneficiaries become entitled to other, higher benefits.

Response

We agree. We will issue a reminder in March 2005.

Recommendation 2

SSA should review Master File Duplicate Detection Operation (MAFDUP) procedures (and
modify if necessary) to ensure all beneficiaries who appear to have incorrectly received multiple
benefits are identified and alerted.

Response

We agree. This finding was based on data from February 2004. Since then, we have made
enhancements in MAFDUP to improve the identification process. As part of
Title II Redesign Release 3, changes were made to clearly define some Master Beneficiary
Record (MBR) data elements. MAFDUP was revised to look at the correct MBR tags when
comparing Health and Medical Insurance data on both Social Security numbers. These
enhancements should help improve the identification process. Also, in September 2004,
MAFDUP was revised to generate a Category 1 (high priority) follow-up alert to the field when
the initial alert is not worked.

As part of our ongoing efforts to enhance payment accuracy, we will consider additional
enhancements that may include:

    •   Adding a modification to the Modernized Claims System (MCS) that would produce a
        processing limitation, instead of an alert, when an auxiliary beneficiary is incorrectly
        receiving benefits on another record, thus avoiding overpayments on the front end; and
    •   Adding other data criteria such as the Beneficiaries Own Account Number to improve
        the selection process.

However, additional systems modifications would require prioritized approval and funding from
the Information Technology Advisory Board prior to implementation.




                                               C-2
Recommendation 3
SSA should run MAFDUP more frequently to minimize the amount of overpayments that
accumulate.

Response

We disagree. We do not believe that running MAFDUP more frequently would assist in
minimizing the amount of overpayments that accumulate. We agree that action is necessary to
minimize the occurrence and amount of overpayments, and as noted in Recommendation 2, we
have made enhancements in MAFDUP to improve the identification process. If the MCS
modification, as outlined in the first bullet of Recommendation 2 (i.e., initiating a processing
limitation as opposed to an alert), is approved and funded, there would be no need for additional
MAFDUP runs.

Recommendation 4
SSA should review the records in which the auxiliary/survivor beneficiaries continued to receive
benefits as of December 2004 and take action to: (a) stop any recurring incorrect payments and
recover any overpayments, or (b) correct the SSNs for those beneficiaries whose SSNs were
incorrectly recorded.

Response

We agree. Once we receive the information from OIG, we will process the accounts that are still
in current pay.

Recommendation 5
SSA should remind employees of the proper procedures for manually calculating and recording
overpayments resulting from multiple benefits.

Response

We agree. We will issue a reminder in March 2005.

Recommendation 6
SSA should review the overpayments to those beneficiaries who incorrectly received multiple
benefits to ensure they were calculated and recorded correctly.

Response

We agree. We will review the 147 cases identified in this review with beneficiaries who
incorrectly received multiple benefits to ensure that the overpayments were calculated and
recorded correctly. We are concerned about the accuracy of our payment-related determinations
and once we receive the information from OIG, we will review the accounts for proper
disposition.



                                             C-3
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Judith Oliveira, Director, Boston Audit Division (617) 565-1765

Acknowledgments
In addition to those named above:

   Jeffrey Brown, Senior Auditor

   Kevin Joyce, IT Specialist

   Brennan Kraje, Statistician

   Frank Salamone, Auditor

   Melinda Tabicas, Auditor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-05-25015.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
